     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region III
                                                                          Public Ledger Building, Suite 316
                                                                          150 S. Independence Mall West
                                                                          Philadelphia, PA 19106-3499

July 28, 2010

Report Number: A-03-10-10005

Ms. Rosa Moody
Compliance Officer
Princeton Community Hospital
P.O. Box 1369
Princeton, WV 24740

Dear Ms. Moody:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Payments for Outpatient Infusion Therapy Services Provided
at Princeton Community Hospital, Princeton, West Virginia. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov, or contact Bernard Siegel,
Audit Manager, at (215) 861-4484 or through email at Bernard.Siegel@oig.hhs.gov. Please refer
to report number A-03-10-10005 in all correspondence.

                                             Sincerely,



                                             /Bernard Siegel/ for
                                             Stephen Virbitsky
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Rosa Moody

cc:
Ms. Sandra Miller
Senior Vice President &
  President Federal Government Solutions
National Government Services
8115-8125 Knue Road
Indianapolis, IN 46250


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




   PAYMENTS FOR OUTPATIENT
  INFUSION THERAPY SERVICES
         PROVIDED AT
PRINCETON COMMUNITY HOSPITAL,
   PRINCETON, WEST VIRGINIA




                       Daniel R. Levinson
                        Inspector General

                           July 2010
                         A-03-10-10005
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Prior to October 1, 2005, section 1816(a) of the Act authorized CMS to contract with fiscal
intermediaries. For purposes of this report, the term "Medicare contractor" means the fiscal
intermediary, carrier, or Medicare administrative contractor, whichever is applicable. Medicare
contractors use CMS’s outpatient prospective payment system to process and pay Medicare
Part B claims for outpatient hospital services submitted by hospitals (providers) on a rate-per-
service basis using the ambulatory payment classification group assigned to each service.

CMS requires providers to bill accurately using the appropriate revenue codes and Healthcare
Common Procedure Coding System (HCPCS) codes and to report the correct units of service
performed. Revenue codes identify the cost center used on the hospital’s annual cost report.
HCPCS codes are used to identify and group services into an ambulatory payment classification
group. When providers performed multiple procedures for the same beneficiary on the same
date of service, the system pays the maximum allowable payment for the first procedure and,
generally, half the maximum allowable payment for each additional procedure. For other
services, Medicare only pays for one service per day, regardless of the number of procedures
performed. Payment for some specific outpatient services is included in the payment for the
primary surgical procedure. Medicare refers to these types of services as “packaged” or
“bundled” services. Medicare does not allow payment of bundled or packaged services on a
rate-per-service basis.

Princeton Community Hospital (the hospital) is a 188-bed acute-care hospital located in
Princeton, West Virginia. National Government Services is the fiscal intermediary for the
hospital and is responsible for collecting overpayments for the hospital’s claims.

OBJECTIVE

Our objective was to determine whether payments received by the hospital from its Medicare
contractor were appropriate for outpatient infusion therapy services billed by the hospital.

SUMMARY OF FINDING

Payments received by the hospital from its Medicare contractor for 762 claims were not
appropriate because they were for outpatient infusion therapy services provided as part of a
surgical procedure and therefore were not separately payable by Medicare. As a result, the
hospital received overpayments totaling $105,845 for 1,387 outpatient services.

RECOMMENDATION

We recommend that the hospital return the $105,845 for the 1,387 outpatient procedure
overpayments.


                                                i
HOSPITAL COMMENTS

The hospital described the action it had taken, which included reviewing 250 of the claims
identified in our audit, and concurred with our recommendation to refund the overpayments. The
hospital also identified claims that it billed appropriately and we adjusted our finding and
recommendation accordingly. The hospital did not identify why these overpayments occurred
but said that in July 2006 it established controls that resolved the issue. The hospital’s comments
are included in Appendix A.

Subsequent to the review, the hospital contacted National Government Services and returned the
overpayments totaling $105,845. The hospital’s notice showing the return of the overpayments
is included in Appendix B.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION...................................................................................................................... 1

          BACKGROUND ............................................................................................................. 1
              Medicare Contractors ............................................................................................ 1
              Hospital Outpatient Prospective Payment System ................................................1
              Infusion Therapy Services .................................................................................... 2
              Princeton Community Hospital............................................................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ..................................................................................................................... 3
               Methodology ......................................................................................................... 3

FINDING AND RECOMMENDATION .................................................................................. 3

          PAYMENT FOR SURGERY-RELATED INFUSION THERAPY SERVICES ............ 4

          RECOMMENDATION .................................................................................................... 4

          HOSPITAL COMMENTS ............................................................................................... 4

APPENDIXES

          A: PRINCETON COMMUNITY HOSPITAL COMMENTS

          B: PRINCETON COMMUNITY HOSPITAL NOTICE OF RETURN OF
             OVERPAYMENTS TO NATIONAL GOVERNMENT SERVICES




                                                                     iii
                                                  INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

Prior to October 1, 2005, section 1816(a) of the Act authorized CMS to contract with fiscal
intermediaries. 1 Medicare contractors process and pay Medicare Part B claims submitted by
hospital outpatient departments (providers). Medicare contractors also conduct reviews and
audits, and safeguard against fraud and abuse. CMS’s Intermediary Manual, Pub. 13, part 3,
section 3700, provides that Medicare contractors must maintain adequate internal controls over
automatic data processing systems to prevent increased program costs and erroneous or delayed
payments. To process providers’ claims for hospital outpatient services, Medicare contractors
use the Fiscal Intermediary Standard System and CMS’s Common Working File. These systems
can detect certain improper payments during prepayment validation.

Hospital Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33, CMS established the Prospective
Payment System for Hospital Outpatient Services (Final Rule), effective July 1, 2000. 2

CMS’s Medicare Claims Processing Manual, Pub. 100-04 (Manual), requires providers to bill
accurately using the appropriate revenue codes and Healthcare Common Procedure Coding
System (HCPCS) codes and to report the correct units of service performed. 3 Revenue codes
identify the cost center used on the hospital’s annual cost report. The outpatient prospective
payment system uses the HCPCS code to identify and group services into an ambulatory
payment classification group.

Medicare contractors use CMS’s outpatient prospective payment system to pay for outpatient
hospital services on a rate-per-service basis using the ambulatory payment classification group
assigned to each service. When providers performed multiple procedures for the same
beneficiary on the same date of service, the system pays the maximum allowable payment for the
first procedure and, generally, half the maximum allowable payment for each additional


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
between October 2005 and October 2011. Most, but not all, of the Medicare administrative contractors are fully
operational; for jurisdictions where the Medicare administrative contractors are not fully operational, the fiscal
intermediaries and carriers continue to process claims. For purposes of this report, the term “Medicare contractor”
means the fiscal intermediary, carrier, or Medicare administrative contractor, whichever is applicable.
2
    See 65 Fed. Reg. 18433-18820 (April 7, 2000).
3
    See chapter 1, section 80, and chapter 4, section 20.


                                                            1
procedure. For other services, Medicare only pays for one service per day, regardless of the
number of procedures performed.

Payment for some specific outpatient services is included in the payment for the primary surgical
procedure. Medicare refers to these types of services as “packaged” or “bundled” services.
Medicare does not allow payment of bundled or packaged services on a rate-per-service basis.

Infusion Therapy Services

Infusion therapy is the administration of fluids and medication through an intravenous injection.
For nonchemotherapy infusion, providers generally bill using revenue code 0260 (intravenous
therapy) and HCPCS code Q0081 (infusion therapy–other than chemotherapy). For
chemotherapy infusion, providers generally bill using revenue code 0335 (radiology–therapeutic
and/or chemotherapy administration) and HCPCS codes Q0083 through Q0085 (chemotherapy).
Beginning January 1, 2005, CMS changed the HCPCS codes for infusion therapy services
annually. 4

During outpatient surgical procedures, patients receive nonchemotherapy infusion therapy for
hydration and the administration of other injectable drugs, including anesthesia. Generally,
Medicare does not pay for these infusion therapy services separately because the payment for the
surgical procedure includes payment for these packaged services.

When a provider administers nonchemotherapy infusion that is not part of a surgical procedure
or administers a chemotherapy infusion, Medicare pays providers only for one infusion therapy
service per visit, regardless of the number or volume of different fluids infused. Medicare pays
for multiple infusion therapy services provided on the same day only when they are performed
during separate visits.

Princeton Community Hospital

Princeton Community Hospital (the hospital) is a 188-bed acute care hospital located in
Princeton, West Virginia. National Government Services is the fiscal intermediary for the
hospital and is responsible for collecting overpayments for the hospital’s claims. At the time of
our audit, Medicare had not selected the Medicare administrative contractor for jurisdiction 11,
which includes West Virginia.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether payments received by the hospital from its Medicare
contractor were appropriate for outpatient infusion therapy services billed by the hospital.

4
  For calendar years 2005 through 2007, the HCPCS codes used, as appropriate for the first/subsequent units
administered per visit, were 90780/90781, C8950/C8951, and 90760/90761, respectively. Before 2007, Medicare
did not generally pay for quantities greater than one unit per visit. However, Medicare required providers to report
the total number of hours of infusion therapy administered. Beginning 2007, and depending on the type of service
provided, Medicare paid for subsequent units at a reduced rate.


                                                          2
Scope

We reviewed payments totaling $105,845 that the Medicare contractor paid the hospital for
1,387 outpatient infusion therapy services on 762 claims from January 1, 2003, through
December 31, 2007. 5 We limited our review of the hospital’s internal controls to those
applicable to these outpatient service claims because our objective did not require an
understanding of all internal controls over the submission and processing of claims. Our review
allowed us to establish reasonable assurance of the authenticity and accuracy of the data obtained
from the National Claims History file, but we did not assess the completeness of the file.

We conducted fieldwork from March through June 2010. Our fieldwork included contacting the
hospital.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Medicare laws, regulations, and guidance;

    •   used CMS’s National Claims History file to identify claims paid for hospital outpatient
        infusion therapy services that were provided as part of outpatient surgical procedures;

    •   contacted the hospital and requested that it determine whether the claims were
        overpayments and, if not, why the claims were not overpayments;

    •   reviewed documentation provided by the hospital for its review of 250 claims, with
        service dates prior to August 2006 that we identified as part of our audit; and

    •   discussed the overpayments with hospital personnel to determine why the overpayments
        occurred.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDING AND RECOMMENDATION

Payments received by the hospital from its Medicare contractor for 762 claims were not
appropriate because they were for outpatient infusion therapy services provided as part of a
surgical procedure and therefore were not separately payable by Medicare. As a result, the
hospital received overpayments totaling $105,845 for 1,387 outpatient services. The hospital did

5
  We initially identified 795 claims with potential overpayment; however, the hospital identified 34 claims with
721 infusion therapy services provided outside of surgery or recovery. Consequently, we did not include these
claims in the report. One of the 795 claims included infusion therapy services that were included in the review and
infusion therapy services that were not included in the review.


                                                         3
not identify why these overpayments occurred but said that in July 2006 it established controls
that resolved the issue.

PAYMENT FOR SURGERY-RELATED INFUSION THERAPY SERVICES

The preamble to CMS’s Final Rule described packaged services as those that are directly related
and integral in the performance of certain outpatient procedures and services. 6 CMS does not
make separate payments for these directly related and integral services when performed as a
packaged service. The Final Rule identified these packaged services by the revenue codes that
hospitals usually use to bill Medicare for these services, not by the HCPCS codes. The Final
Rule identified nonchemotherapy intravenous infusion therapy (revenue code 0260) as a
packaged service when performed in conjunction with a related outpatient surgical procedure. 7

For 762 claims, the hospital billed and received payment for 1,387 nonchemotherapy infusion
therapy services provided during outpatient surgical procedures. These infusion therapy services
were not separately billable by the provider or payable by Medicare. As a result, the hospital
received overpayments of $105,845.

RECOMMENDATION

We recommend that the hospital return the $105,845 for the 1,387 outpatient procedure
overpayments.

HOSPITAL COMMENTS

The hospital described the action it had taken, which included reviewing 250 of the claims
identified in our audit, and concurred with our recommendation to refund the overpayments. The
hospital also identified claims that it billed appropriately and we adjusted our finding and
recommendation accordingly. The hospital did not identify why these overpayments occurred
but said that in July 2006 it established controls that resolved the issue. The hospital’s comments
are included in Appendix A.

Subsequent to the review, the hospital contacted National Government Services and returned the
overpayments totaling $105,845. The hospital’s notice showing the return of the overpayments
is included in Appendix B.




6
    See 65 Fed. Reg. 18433, 18450 (April 7, 2000).
7
    See 65 Fed. Reg. 18433, 18484 (April 7, 2000).


                                                     4
APPENDIXES
            APPENDIX A: PRINCETON COMMUNITY HOSPITAL COMMENTS 




                                                CETON 

                                C()rnmmnt'{ Hospital




Mr, John Carlucci, CPA
Senior Auditor
HHS-OIG- Office of Audit Services
150 South Independence Mall West, Suite 316
Philadelphia, PA 19106

Provider: 510046- Princeton Community Hospital Association, Inc.
Repmt #: A-03-1 0-10005


DeHr Mr. Carlucci;

Princeton Community Hospital Association reviewed two hundred tlfty claims with
service dates prior to August, 2006, Our ilndings support your intemal re'viev,,I results;
therefore, \ve did not review additional claims with service dates prior to that time line.

Princeton Community Hospital Association implemented charge master reviews and
charge processes \vith HwfI, incorporat<:d in May 2006 and subsequently developed an
internal Revenue Integrity position July 30) 2006, Our tll1dings indicate post August,
2006 the rate of error IS greatly reduced.

PCHA is requesting a reduction 0[$13,291.78 representing forty three accounts \'i'here
hydration services were perfom1ed outside of surgery or recovery. A separate tab has
been ridded to the OIG pmvider spreadsheet labeled 'pcll review chrgd from OBS Of ER'
identifying the accounts.

We request to make direct payment 0[$105,845.46 to the appropriate source in lieu of
processing adjusted claims through National Government Services. This will greatly
re,duce the administrative burden for both PCRA and NOS,

Additionally, PCHA ran calendar year 2008 and 2009 intenml reports for hydration
services performed in conJunction v\/ith a surgical procedure. The data !!1cilcates hydration
services charged post surgery and recovery.

Please advise next steps.

Thank you,

4t~~-
Greg Yost
  APPENDIX B: PRINCETON COMMUNITY HOSPITAL NOTICE OF RETURN OF 

        OVERPAYMENTS TO NATIONAL GOVERNMENT SERVICES 



                             r~PRINCETON   Community Hospital
                                                                                                           



June 24, 20 I 0


Mr. Mike Scholz
Senior Auditor- Underpayments
National Government Services
P.O. Box 29622
New York, New York 10087-9622

Provider: 510046- Princeton Community Hospital Association, Inc.
Report #: A-03-1O-10005- OIG Review


Dear Mr. Scholz:

Princeton Community Hospital encloses a check in the sum of One Hundred Five
Thousand Eight Hundred Forty Five Dollars and Forty Six cents ($105,845.46) refunding
National Government Services as a result of an overpayment review conducted in
coordination with the OIG.

As you and I discussed, refunding directly greatly reduces the administrative burden for
both PCHA and NGS while reducing associated costs of submitting adjusted claims for
services dating back to calendar year 2006.

Please also find enclosed correspondence which explains and supports the issue in detail.
Should you have questions or require further explanation please contact me directly at
304-487-7266.


Thank you,



Greg Yost
PFS Director



cc: Frank Sinicrope
    Rosa Moody
    John Carlucci


             P.O Box 1369. 122 Twelfth Streelo Princeton, WV 24740-1369. Phone: 304/487-7000 • Fax: 304/487-2161
